WAIVE

7

Supreme Court, U.S.
FILED

AUG 2 9 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STAT `N
No.

21-5171

'Stephen Cummings

; Dolby Laboratories, Inc., et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

!Lightstorm Entertainment, Inc.; Paramount Pictures Corporation; Paramount Home Entertainment Inc.;
(Twentieth Century Fox Film Corp; James Cameron

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

'17/27/21

(Type or print) Name ;Mark
D. Litvack
0 Mr.

Firm

0 Ms.

0 Mrs.

0

Miss

;Pillsbury Winthrop Shaw Pittman LLP

Address

725 South Figueroa Street, 36th Floor

City & State

Los Angeles, California

Phone

F213.488.7100

Zip 190017-5524
Email !mark.litvack@pillsburylaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cove lettar is requirpd
Mr. Stephen Cummings
CC:

RECEIV-ED
I
AUG -9 2021
i

OFFICE OF THE CLERK
—SUPREME COURT.IU S

Docket No. 21-5171
PROOF OF SERVICE
I am employed in the State of California, in the office of a member of the bar
of this Court, at whose direction the service is made. I am over the age of eighteen
years, and not a party to the within action. My email and business address is
inga.delarosa@pillsburylaw.com and Pillsbury Winthrop Shaw Pittman LLP, 725
South Figueroa Street, 36th Floor, Los Angeles, CA 90017-5524. On July 29,
2021, I served the document titled WAIVER on the following party in this action
as follows:
Stephen Cummings
P.O. Box 373
New York, NY 10163

In Pro Per

LI

(BY MAIL) I caused each envelope, with postage thereon fully prepaid, to
be placed in the United States mail at Los Angeles, CA. I am readily
familiar with the practice of Pillsbury Winthrop Shaw Pittman LLP for
collection and processing of correspondence for mailing, said practice
being that in the ordinarycourse of business, mail is deposited- in the
United States Postal Service the same day as it is placed for collection.

Li

(BY FACSIMILE) The above-referenced document is transmitted by
facsimile transmission and the transmission was reported as complete and
without error to the numbers listed above.

Li

(BY EMAIL TRANSMISSION) The above-referenced document is
transmitted via electronic transmission to the persons at the electronicemail addresses indicated on the attached Service List.

Li

(BY PERSONAL SERVICE) I delivered to an authorized courier or
clriver authorized by
to receive documents to be delivered on the
same date. A proof o—fTeTvice signed by the authorized courier will be filed
forthwith.
(BY OVERNIGHT COURIER) I am readily familiar with the practice of
Pillsbury Winthrop Shaw Pittman LLP for collection and processing of
correspondence for overnight delivery and know that the document(s)
described herein will be deposited in a box or other facility regularly
maintained by
for overnight delivery.

I declare under penalty of perjury that the foregoing is true and correct.
Executed this 29th day of July, 2021, at Brea, California.

Inga De La Rosa

4816-8981-2724.v1

